Audit Report




OIG-12-010
Management Letter for the Audit of the Federal Financing Bank’s
Fiscal Years 2011 and 2010 Financial Statements


November 15, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 15, 2011


            MEMORANDUM FOR GARY BURNER, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the Federal Financing
                                  Bank’s Fiscal Years 2011 and 2010 Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Years 2011 and 2010 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of FFB as of September 30, 2011 and 2010, and for the years
            then ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting and its operation that was identified during the audit but was not required
            to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at (202) 927-
            5407.

            Attachment
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




November 14, 2011



Inspector General, U.S. Department of the Treasury, and
the Board of Directors, Federal Financing Bank:




In planning and performing our audit of the Federal Financing Bank’s (the Bank) financial
statements as of and for the year ended September 30, 2011, in accordance with auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended, we considered the Bank’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements but not for the purpose of
expressing an opinion on the effectiveness of the Bank’s internal control. Accordingly, we do not
express an opinion on the effectiveness of the Bank’s internal control.
During our audit, we noted a certain matter involving internal control that is presented for your
consideration. This comment and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control and are
summarized in Exhibit I. We also provided in Exhibit II the status of the comments included in
our letter arising from the fiscal year 2010 audit.
Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements and, therefore, may not bring to light all weaknesses in policies or procedures that may
exist. We aim, however, to use our knowledge of the Bank gained during our work to make
comments and suggestions that we hope will be useful to you.
This communication is intended solely for the information and use of the Bank’s management, the
U.S. Department of the Treasury’s Office of Inspector General, the U.S. Government
Accountability Office, the Office of Management and Budget, and the U.S. Congress, and is not
intended to be, and should not be, used by anyone other than these specified parties.




                            KPMG LLP is a Delaware limited liability partnership,
                            the U.S. member firm of KPMG International Cooperative
                            (“KPMG International”), a Swiss entity.
                                                                                                Exhibit I

                                     Federal Financing Bank
                                  Comment and Recommendations
                                         September 30, 2011



Fair Value of the Federal Credit Reform Act Borrowings
   In fiscal year 2011, management consolidated the various Fortran, SQL, and Excel processes used in
   fiscal year 2010 to calculate the fair value of borrowings into one automated process within Fortran.
   The audit identified that during the consolidation, the program code used to determine the fair value
   of borrowings used to fund certain guaranteed loans that require the guaranteeing federal agencies to
   comply with the Federal Credit Reform Act (FCRA) omitted a liquidity premium.

   As a result of our finding, management added a liquidity premium of 25 basis points to the program
   code and reran the fair value calculation for the borrowings used to fund certain guaranteed loans that
   require the guaranteeing federal agencies to comply with the FCRA. The fair value calculated after
   the liquidity premium was added was $192,366,428.85 less than the originally calculated fair value.
   As a result, the borrowing fair value note disclosure was adjusted downward by $192,366,428.85.

   Recommendations
   We recommend that management:
   1) Implement controls to ensure that all inputs for the fair value calculations are approved and
      verified.
   2) Check the accuracy of the automated calculations by reperforming one fair value calculation for
      each type of transaction that is included in the note disclosure (e.g., loan with no call option,
      callable loan with options that has not reached the first call date, callable loan with options that
      has aged past the first available call date, borrowing with Treasury, borrowing with Office of
      Personnel Management, borrowing with Treasury used to fund certain guaranteed loans that
      require the guaranteeing federal agencies to comply with the FCRA). This could be done as part
      of the review and approval of the note disclosures.


   Management’s Response
   Management concurs with the finding and recommendations.




                                                   2
                                                                                        Exhibit II

                                     Federal Financing Bank
                                 Status of Prior Year Comments
                                      September 30, 2011




           Prior Year Comment                                  Current Year Status

1. Unsuccessful Login Attempts                    This condition has been corrected in fiscal year
                                                  2011.

2. Password Policy                                This condition has been corrected in fiscal year
                                                  2011.




                                              3
